No. __________
IN THE SUPREME COURT OF THE UNITED STATES
Brandi Channon and Matthew Channon,
Petitioners,
v.
United States of America,
Respondent
JOINT MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioners Brandi Channon and Matthew Channon respectfully request that
this Court grant them leave to proceed in forma pauperis. In support of this request,
Petitioners state that undersigned counsel was appointed pursuant to the Criminal
Justice Act, 18 U.S.C. ยง 3599(a)(2), by the United States Court of Appeals for the
Tenth Circuit, and that Petitioners are unable to retain counsel and pay the costs
attendant to proceeding before this Honorable Court.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
/s Grant R. Smith
Grant R. Smith
Assistant Federal Public Defender
Counsel of Record for Petitioner, Matthew
Channon
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002

/s James L. Hankins
James L. Hankins
MON ABRIBUSINESS CENTER
Counsel of Record for Petitioner, Brandi
Channon
2524 N. Broadwqay
Edmond, Oklahoma 73034
(405) 753-4150

2

